No. ______
In the

Supreme Court of the United States
__________________

STATE REL. ROBERT MERRILL, TRUSTEE, ET AL.,
Petitioner,
v.
STATE OF OHIO, DEPARTMENT OF NATURAL
RESOURCES, ET AL.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
Supreme Court of Ohio

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________

DENNIS E. MURRAY, SR., ESQ. (0008783)
Counsel of Record
dms@murrayandmurray.com
MARGARET M. MURRAY, ESQ. (0066633)
mmm@murrayandmurray.com
DONNA J. EVANS, ESQ. (0072306)
dae@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky OH 44870
(419) 624-3000

Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
Whether the failure of a state court to provide
individual notice to readily identifiable class members
in a class action settlement of a case asserting a taking
by a State of property owned by Class Members by
certifying the class under Ohio’s Civil Procedure Rule
23(B)(2), (identical to Federal Rule of Civil Procedure
23(b)(2)) instead of certification under Rule 23(b)(3),
when the Class Members are to be given settlement
payments of monetary compensatory damages for the
taking, thereby depriving those class members who
never received notice of the settlement of Ohio’s taking
of their realty interests of their right to Due Process
under the Civil Rules.
Whether the failure of a state court to provide
individual notice to readily identifiable class members
whose lands were taken in a class action settlement
when they were entitled to claim payments of monetary
compensatory damages, constitutes an improper
deprivation of their properties without Due Process of
law, as would be required under the Fifth and
Fourteenth Amendments to the United States
Constitution and of the Ohio Constitution.
Whether a state court judgment approving a
settlement arising out of a state’s taking without
providing notice to class members who are readily
identifiable, which deprives the class members of their
property without Due Process of law, would be binding
and enforceable against those class members so
deprived.

ii
LIST OF ALL PARTIES TO THE PROCEEDING
In addition to the parties listed in the caption of this
case, Petitioner George Sortino is a party to this
proceeding.

iii
LIST OF ALL RELATED PROCEEDINGS
State ex rel. Robert Merrill, Trustee v. State of Ohio,
Department of Natural Resources, et al., Case No.
04CV001080, Lake County, Ohio, Court of Common
Pleas.
State ex rel. Robert Merrill, Trustee v. State of Ohio,
Department of Natural Resources, et al., Case No. 2019L-164, Court of Appeals, Eleventh Appellate District,
Lake County Ohio.
State ex rel. Robert Merrill, Trustee v. State of Ohio,
Department of Natural Resources, et al., Case No 20210162, Supreme Court of Ohio.
State of Ohio ex rel. George Sortino v. State of Ohio
Department of Natural Resources, et al., Case No. 2018
CV 0074, Court of Common Pleas, Erie County, Ohio.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
LIST OF ALL PARTIES TO THE PROCEEDING. . ii
LIST OF ALL RELATED PROCEEDINGS . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . xi
CITATIONS TO OPINIONS ENTERED IN THE
CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS AN RULES
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . 12
I.

The Ohio Courts Failed to Adhere to this
Court’s Precedents, Which Guarantee Class
Members’ Rights to Due Process Before They
Are Deprived of A Property Interest, When
The Eleventh District Court Of Appeals
Affirmed the Decision of the Lake County
Ohio Court of Common Pleas and Did Not
Require that the Trial Court Provide
Individual Notice of a Monetary Class
Settlement to All Class Members Who Could
Be Readily Identified. . . . . . . . . . . . . . . . . . . 12

v
A. This Court has clearly established that
Class Members have a due process right
to individualized notice upon settlement
of a class action for monetary relief under
Rule 23(b)(3) of the Federal Rules of Civil
Procedure . . . . . . . . . . . . . . . . . . . . . . . . . 12
B. The constitutional right to due process. . 14
II.

The Ohio Courts’ Decisions To Enforce As
Valid a Judgment of a Court Which Deprived
Class Members of their Due Process Rights,
Has Created a Conflict Between the State
Court’s Decision and those of This Court . . . 15

III.

This Court should re-evaluate the dismissal
of the Ticor certiorari petition. . . . . . . . . . . . 16
A. The questions raised in this appeal, which
are identical to those the Ticor decision
labeled hypothetical, are actually of
practical importance to these and future
litigants . . . . . . . . . . . . . . . . . . . . . . . . . . 16
1. Whether Class Action settlements
providing only money damages to class
members must be certified under Rule
23(b)(3), which provides them the due
process right to notice and to opt-out,
is of practical importance to Class
Members who assert a collateral
attack on the settlements based upon
their deprivation of those rights . . . . 16

vi
2. Determining whether certification
under Rule 23(b)(3) is mandated for
classes receiving monetary damages
will provide clarity to the question of
whether or not this Court need
address the constitutional question of
due process . . . . . . . . . . . . . . . . . . . . . 21
3. In this Court’s dismissal of the Ticor
certiorari petition as improvidently
allowed, the surviving decision of the
Ninth Circuit regarding the res
judicata effect of an analogous
settlement arrangement supports
Petitioner’s (and all similarly situated
class members’) ability to collaterally
attack the Merrill settlement . . . . . . . 23
B. The well-reasoned opinion of the Ticor
Dissent should be adopted by this Court,
allowing review of this case . . . . . . . . . . . 26
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX
Appendix A Entry in the Supreme Court of Ohio
(April 27, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Court of Appeals
Eleventh Appellate District Lake
County, Ohio
(February 4, 2021) . . . . . . . . . . . . App. 2

vii
Appendix C Judgment Entry in the Court of
Appeals Eleventh District State of
Ohio County of Lake
(December 21, 2020) . . . . . . . . . . App. 22
Appendix D Order Granting Motion to Enforce
Settlement Agreement and for Civil
Contempt in the Court of Common
Pleas Lake County, Ohio
(November 7, 2019). . . . . . . . . . . App. 24
Appendix E First
Amended
Complaint for
Declaratory Judgment, Mandamus,
and Other Relief in the Court of
Common Pleas Lake County, Ohio
(July 2, 2004) . . . . . . . . . . . . . . . App. 44
Appendix F Order Certifying Class Action on
Count One of the First Amended
Complaint in Case No. 04-CV-001080
in the Court of Common Pleas Lake
County, Ohio
(June 9, 2016) . . . . . . . . . . . . . . . App. 60
Appendix G Opinion in the Supreme Court of Ohio
(September 14, 2011) . . . . . . . . . App. 66
Appendix H Order and Final Judgment in the
Court of Common Pleas Lake County,
Ohio
(October 24, 2016) . . . . . . . . . . . . App. 97

viii
Appendix I Defendants’ Motion to Enforce
Settlement and for Civil Contempt in
the Court of Common Pleas Lake
County, Ohio
(May 29, 2018) . . . . . . . . . . . . . App. 107
Exhibit A, Stipulation of Settlement in
the Court of Common Pleas Lake
County, Ohio
(May 27, 2016) . . . . . . . . . . . . . App. 127
Exhibit B, Order and Final Judgment
in the Court of Common Pleas Lake
County, Ohio
(October 24, 2016) . . . . . . . . . . . App. 149
Exhibit C, Affidavit of Cynthia K.
Frazzini in the Court of Common
Pleas Lake County, Ohio
(May 29, 2018) . . . . . . . . . . . . . App. 161
Frazzini Exhibit A, Complaint for
Declaratory Judgment, Mandamus
and Other Relief in the Court of
Common Pleas Erie County, Ohio
(January 31, 2018) . . . . . . . . . . App. 164
Frazzini Exhibit B, Letters Between
Murray & Murray and Brickler & Eckler
(March 22, 2018) . . . . . . . . . . . . App. 180

ix
Frazzini Exhibit C, Defendants’
Motion to Dismiss for Lack of
Jurisdiction or, in the Alternative, for
Transfer of Venue in the Court of
Common Pleas, Erie County, Ohio
(April 3, 2018) . . . . . . . . . . . . . . App. 191
Frazzini Exhibit D, Response to
Defendants’ Motion to Dismiss for
Lack of Jurisdiction or, in the
Alternative, for Transfer of Venue in
the Court of Common Pleas Erie
County, Ohio
(May 3, 2018) . . . . . . . . . . . . . . App. 202
Frazzini Exhibit E, Defendants’ Reply
Memorandum in Support of Their
Motion To Dismiss for Lack of
Jurisdiction or, in the Alternative, for
Transfer of Venue in the Court of
Common Pleas, Erie County, Ohio
(May 25, 2018) . . . . . . . . . . . . . App. 222
Frazzini Exhibit F, Defendants’
Motion to Stay, in the Alternative in
the Court of Common Pleas, Erie
County, Ohio
(May 25, 2018) . . . . . . . . . . . . . App. 235
Frazzini Exhibit G, Acknowledgment
in the Lake County Court of Common
Pleas
(December 8, 2016) . . . . . . . . . . App. 242

x
Appendix J Complaint for Declaratory Judgment,
Mandamus and Other Relief in the
Court of Common Pleas Erie County,
Ohio
(January 31, 2018) . . . . . . . . . . App. 245

xi
TABLE OF AUTHORITIES
CASES
Amchem Prods., Inc. v. Windsor,
521 U.S. 591, 117 S.Ct. 2231,
138 L.Ed.2d 689 (1997) . . . . . . . . . . . . . . . . . 17, 18
Besinga v. United States,
923 F.2d 133 (9th Cir. 1991). . . . . . . . . . . . . . . . 25
Eisen v. Carlisle & Jacquelin,
417 U.S. 156, 94 S. Ct. 2140,
40 L.Ed.2d 732 (1974) . . . . . . . . . . . . . . . . . . 13, 20
Greenfield v. Villager Industries, Inc.,
483 F.2d 824 (3d Cir. 1973) . . . . . . . . . . . . . 15, 22
Haddock v. Haddock,
201 U.S. 562 (1906). . . . . . . . . . . . . . . . . . . . . . . 16
Hamilton v. Ohio Sav. Bank,
82 Ohio St.3d 67, 1998-Ohio-365,
694 N.E.2d 442 . . . . . . . . . . . . . . . . . . . . . . . 17, 18
Hansberry v. Lee,
311 U.S. 32, 61 S.Ct. 115, 85 L.Ed. 22 (1940) . . 24
Hecht v. United Collection Bureau, Inc.,
691 F.3d 218 (2d Cir. 2012) . . . . . . . . . . . . . . . . 22
Hospitality Mgmt. Assocs. v. Shell Oil Co.,
356 S.C. 644, 591 S.E.2d 611 (S.C. 2004) . . . . . 21
In re “Agent Orange” Prod. Liab. Litig. MDL
No, 381, 818 F.2d 145 (2d Cir. 1987) . . . . . . . . . 22

xii
In re Kroger Co. Shareholders Litigation,
70 Ohio App.3d 52,
590 N.E.2d 391 (1st Dist. 1990) . . . . . . . . . . . . . 19
In re Nissan Motor Corp. Antitrust Litigation,
552 F.2d 1088 (5th Cir. 1977). . . . . . . . . . . . . . . 14
Jiannaras v. Alfant,
124 A.D.3d 582, 1 N.Y.S.3d 332 (2015) . . . . . . . 25
Juris v. Inamed Corp.,
685 F.3d 1294 (11th Cir. 2012). . . . . . . . . . . . . . 24
Kremer v. Chem Constr. Corp.,
456 U.S. 461, 102 S.Ct. 1883,
72 L.Ed.2d 262 (1982) . . . . . . . . . . . . . . . 15, 16, 24
Logan v. Zimmerman Brush Co.,
455 U.S. 422 (1982). . . . . . . . . . . . . . . . . . . . . . . 14
Marks v. C.P. Chem. Co., Inc.,
31 Ohio St.3d 200, 31 OBR 398,
509 N.E.2d 1249 (1987). . . . . . . . . . . . . . . . . . . . . 2
Matsushita Elec. Indus. Co., Ltd. v. Epstein,
516 U.S. 367, 134 L.Ed.2d 6,
116 S.Ct. 873 (1996) . . . . . . . . . . . . . . . . . . . . . . 24
McDonald v. Mabee,
243 U.S.90 (1917) . . . . . . . . . . . . . . . . . . . . . . . . 16
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 94 L.Ed. 865,
70 S.Ct. 652 (1950) . . . . . . . . . . . . . . . . . 14, 15, 22
Ortiz v. Fibreboard Corp.,
527 U.S. 815 (1999). . . . . . . . . . . . . . . . . . . . . . . 18

xiii
Penson v. Terminal Transport Co.,
634 F.2d 989 (5th Cir. 1981). . . . . . . . . . . . . . . . 25
Phillips Petroleum Co. v. Shutts,
472 U.S. 797, 105 S.Ct. 2965,
86 L.Ed.2d 628 (1985) . . . . . . . . . . . . . . . 15, 20, 21
Ticor Title Ins. Co. v. Brown,
511 U.S. 117, 114 S.Ct. 1359,
128 L.Ed.2d 33 (1994) . . . . . . . . . . . . . . . . . passim
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338, 131 S.Ct. 2541,
180 L.Ed.2d 374 (2011) . . . . . . . . . . . . . . 12, 19, 21
CONSTITUTION AND STATUTES
U.S. Const. amend V . . . . . . . . . . . . . . . . . . . . . . . . . 3
U.S. Const. amend XIV . . . . . . . . . . . . . . . . . . . . 4, 11
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Fed.R.Civ.P. 23(b)(2) . . . . . . . . . . . . . . . . . . . . passim
Fed.R.Civ.P. 23(b)(3) . . . . . . . . . . . . . . . . . . . . passim
Fed.R.Civ.P. 23(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . 13
Fed.R.Civ.P. 23(c)(2)(b) . . . . . . . . . . . . . . . . . . 2, 5, 20
Fed.R.Civ.P. 23(E)(1) . . . . . . . . . . . . . . . . . . . . . . . . 20

xiv
OTHER AUTHORITIES
Note, Collateral Attack on the Binding Effect of
Class Action Judgment, 87 Harv. L.Rev. 589
(1974). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Wright et al., Federal Practice and Procedure,
Section 1777 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

1
CITATIONS TO OPINIONS
ENTERED IN THE CASE
State ex rel. Merrill, Trustee v. Ohio State
Department of Natural Resources, et al., Case No.
04CV001080, Court of Common Pleas, Lake County
Ohio, Order Granting Motion to Enforce Settlement
Agreement and for Civil Contempt, unpublished,
November 7, 2019.
State ex rel. Merrill v. State Department of Natural
Resources, Case No. 2019-L-164, Court of Appeals,
Eleventh Appellate District, Lake County, Ohio,
Opinion Affirming Judgment of Lake County Court of
Common Pleas, 2020-Ohio-6811, December 21, 2020.
State ex rel. Robert Merrill, Trustee v. State of Ohio
Department of Natural Resources, et al., Case No. 20210162, Supreme Court of Ohio. Entry declining to accept
jurisdiction of appeal, 04/27/2021 Case
Announcements, 2021-Ohio-1399, April 27, 2021.
BASIS FOR JURISDICTION
The Ohio Supreme Court issued its Entry on April
27, 2021 declining to accept jurisdiction of a timely filed
Notice of Appeal and Petition for Jurisdiction. This
Court’s jurisdiction is invoked under 28 U.S.C.
§ 1257(a).
CONSTITUTIONAL PROVISIONS AN
RULES INVOLVED
The focus of this matter deals with the propriety of
certification of a settlement class under Ohio Rule of
Civil Procedure 23(B)(2) when paying money damages

2
to the class members instead of certification pursuant
to Civ.R. 23(B)(3). This matter invokes the Due Process
failures by the state in taking of private lands and by
the Judiciary in permitting Due Process violations.
These are also, of course, protections guaranteed by the
Fifth and Fourteenth Amendments to Class members
where property ownership rights were taken by the
State. These Class Members should have been provided
with individualized notice of the settlement, before
being deprived of their property rights. There is a
conflict between the Ohio state court decision and the
requirement under Federal Rule of Civil Procedure
23(c)(2)(B) and the cases of this Court mandating that
individual notice be provided to all members of a class
certified under Federal Rule of Civil Procedure 23(b)(3).
Class members were easily identifiable with virtually
no effort and could have been provided with individual
notice. Yet, the holding of the Ohio Courts interpreting
the identical rule in the Ohio Rules of Civil Procedure,
arrived at contrary conclusions.1
Furthermore, this Court in Ticor Title Ins. Co. v.
Brown, 511 U.S. 117, 114 S.Ct. 1359, 128 L.Ed.2d 33
(1994), after accepting that case for review, explicitly
refused to answer the question of whether a
certification of a class for money damages with no right
to opt-out under Federal Rule 23(b)(2) would be a
deprivation of Due Process. The question of whether a

1

Ohio’s Civil Procedure Rule 23(A) and (B) are identical to the
Federal Rule of Civil Procedure 23(a) and (b). The Ohio Supreme
Court has recognized that “federal authority is an appropriate aid
to interpretation of the Ohio rule.” Marks v. C.P. Chem. Co., Inc.,
31 Ohio St.3d 200, 201, 31 OBR 398, 509 N.E.2d 1249 (1987).

3
class for money damages could only be appropriately
certified under Fed.R.Civ.P 23(b)(3) was not before this
Court in Ticor because that issue had not been
appealed in the courts below. Therefore, the propriety
of certification of the Ticor class as a (b)(2) class was
res judicata. In the context of the Ticor case, this
Court stated that answering the constitutional
question would be entirely hypothetical. Instead of
answering a hypothetical question, this Court
dismissed the case as improvidently allowed.
As to this case, the Due Process requirements for
notice under Rule 23(b)(3) have been clearly
established. The question of whether these
deprivations of Due Process would bind the absent
class members to a judgment which precluded their
rights to bring an action in another court asserting the
same claims is no longer hypothetical. This important
question of federal law should now be settled by this
Court to give proper guidance to both federal and state
courts when certifying a class in class action
proceedings. This is the proper case to resolve that
question.
Fifth Amendment – U.S. Constitution
No person shall be held to answer for a
capital, or otherwise infamous crime, unless on
a presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness

4
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
Fourteenth Amendment- Section 1 – U.S.
Constitution
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Federal Rule of Civil Procedure 23(b)(2)
A class action may be maintained if Rule
23(a) is satisfied and if the party opposing the
class has acted or refused to act on grounds that
apply generally to the class, so that final
injunctive relief or corresponding declaratory
judgment is appropriate respecting the class as
a whole.
Federal Rule of Civil Procedure 23(b)(3)
A class action may be maintained if Rule
23(a) is satisfied and the court finds that the
questions of law or fact common to class
members predominate over any questions
affecting only individual members, and that a

5
class action is superior to other available
methods for fairly and efficiently adjudicating
the controversy.
Federal Rule of Civil Procedure 23(c)(2)(B)
For any class certified under Rule 23(b)(3) –
or upon ordering notice under Rule 23(e)(1) to a
class proposed to be certified for purposes of
settlement under Rule 23(b)(3) – the court must
direct to class members the best notice that is
practicable under the circumstances, including
individual notice to all members who can be
identified through reasonable effort.
STATEMENT OF THE CASE
This appeal is about absent class members’ rights to
Due Process under the United States Constitution and
how the requirements for the provision of notice to
class members under Federal Rule of Civil Procedure
23 (and the identical Rule 23 of the Ohio Rules of Civil
Procedure) impact those due process rights.
The case that underlies this Petition for Certiorari
is State ex rel. Robert Merrill v. State of Ohio,
Department of Natural Resources, et al., Case No.
04CV001080 in the Lake County, Ohio Court of
Common Pleas. In that case the parties reached a
settlement which provided class members with
monetary compensation and for agreed upon attorney
fees. But it did not provide the class with
individualized notice of their right to participate nor to
opt-out of the settlement. The terms of the settlement
arrangements were in conflict with this Court’s
requirement that individualized notice of settlement be

6
provided to all class members who can be identified
with reasonable effort. The Merrill settlement included
a release by all persons whose lands had been taken for
all claims against the State of Ohio which was held to
be binding on the entire class by the state trial court,
even though the vast majority of the class were
unaware they had ever had any rights to claim any
portion of the settlement proceeds, nor that they would
be giving up these rights. The majority of the Class was
ignorant of the settlement’s existence. Petitioner,
George Sortino (“Sortino”), asserts that this result is a
deprivation of the class members’ constitutional right
to Due Process, which rendered the settlement
unenforceable against those uninformed class
members.
Merrill arose out of the Ohio Department of Natural
Resources’ (“ODNR”)
taking of class members’
waterfront property on Lake Erie. Merrill was settled
by agreement of the named parties. However,
Petitioner Sortino, a person who met the definition of
a class member, as an owner of substantial waterfront
property interests on Lake Erie, could not participate
in the settlement because the settlement, as approved
by the trial court, provided for no individualized notice
to Sortino and thousands of other absent class
members. This occurred even though the state
possessed the actual addresses of these class members
through the Ohio counties’ tax records. Sortino did not
learn about the settlement until long after the deadline
to file a claim for the settlement funds and after all of
the funds had been distributed to class attorneys and
select class members.

7
The Merrill case started out as a declaratory
judgment action and a request for mandamus on behalf
of approximately 15,500 absent class members/property
owners abutting Lake Erie in Ohio. No money damage
was sought in the Complaint. (App. 44). The Merrill
plaintiffs correctly alleged that Ohio had unlawfully
asserted ownership rights to the shoreline property up
to the ordinary high water mark, and had also actually
required some class members to pay monies to lease
parts of their own lands back from the State of Ohio.
The trial court certified a class for the declaratory
judgment count under Ohio Rule of Civil Procedure
23(B)(2) to determine the proper waterfront boundary
line. This class was described as “all persons, as
defined in R.C. § 1506.01(D), excepting the State of
Ohio and any state agency, as defined in R.C. § 1.60,
who are owners of littoral property bordering Lake Erie
(including Sandusky Bay and other estuaries
previously determined to be a part of Lake Erie under
Ohio law) within the territorial boundaries of the State
of Ohio.” (App. 26). The Ohio Supreme Court
eventually held that the landward boundary of Lake
Erie was not the ordinary high water mark, which
ownership ODNR had laid claim to, but instead was
“the natural shoreline, the line at which the water
usually stands when free from disturbing causes.”
Merrill v. ODNR, 130 Ohio St.3d 30, 2011-Ohio-4612,
54. (App. 67-68).
After remand, the trial court ordered ODNR to
return lease monies improperly collected from 683 class
members with submerged land leases, and extended
the Civ.R. 23(B)(2) certification for the class for the
remaining two counts in the Complaint. (App. 97). The

8
counts sought declaratory judgment as to whether
ODNR’s actions constituted a taking of class members’
property without just compensation, and a request for
a Writ of Mandamus to require ODNR to begin
individual appropriation proceedings in separate
actions to establish the value of each Class Member’s
lands taken. These were the appropriate steps which
should have been taken.
The trial court held that Civ.R. 23(B)(2) certification
continued to be appropriate because the remedies
sought were equitable, and “the party opposing the
class has acted or refused to act on grounds that apply
generally to the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole.” This certification
determination was affirmed up to the Ohio Supreme
Court. Merrill v. ODNR, 11th Dist. No. 2012-L-113,
2014-Ohio-1343, 5, 20, cert denied, 140 Ohio St.3d
1416, 2014-Ohio-3785.
However, the parties eventually settled the entire
case and entered into a Stipulation of Settlement for
monetary relief, not the equitable relief sought in the
complaint. ODNR paid $6.1 million to resolve the case
for all 15,500 class members. Out of the settlement
fund, $1,720,091.51 was allocated to refunds of
improperly collected land leases under Count I of the
Amended Complaint. Then only one Named Plaintiff,
Ohio Lakefront Group, received reimbursement for
some of the attorney fees that had allegedly been paid
by that Plaintiff in the amount of $600,000.
Only then were the rest of the settlement monies
distributed to remaining class members who filed a

9
claim. This distribution was made according to a plan
of allocation, provided for in the Settlement Agreement
“for payment of compensation with respect to Count II
[the claim seeking a declaratory judgment that there
had been an unconstitutional taking].” In approving
the Settlement, the trial court did not reevaluate the
continuing viability of class certification under Civ.R.
23(B)(2), despite the fact that the settlement provided
only for monetary compensatory damages to the Count
II class members and none of the equitable relief pled.
(App. 149).
Only the 683 property owners, who were to receive
reimbursement for their lease payments, were sent an
individual notice. Because the class had previously
been certified under Civ.R. 23(B)(2), which does not
require individual notice nor a right to opt-out, the
Settlement Agreement and the Court did not provide
for individual notices to the Class. No individual notice
was provided despite the fact that each property
owner’s address was known and recorded in each of the
eight counties abutting Lake Erie’s real estate tax
records. That was the case, despite the fact that the
Settlement Agreement stated that each of the class
members were to be bound by the Settlement
Agreement and the Releases contained in it. The trial
court merely ordered publication of the settlement
notice in a few local newspapers. No property owners
were afforded the right to opt-out. Despite these
obvious Due Process deficiencies, the Court
unconstitutionally approved the Settlement Agreement
which required that all class members would be bound
by the releases that would prohibit them from
prosecuting any further claims. (App. 149). The lack of

10
notice deprived Sortino of his Due Process right to
receive notice, to file a claim to participate in the
settlement distribution and/or to opt-out of the
settlement. After becoming aware that the Merrill case
had been filed and the settlement paid, Sortino sought
to enforce his rights to Due Process. Sortino filed a
class action in the Erie County, Ohio, Court of Common
Pleas. State of Ohio ex rel. George Sortino v. State of
Ohio, Department of Natural Resources, et al., Case No.
2018 CV 0074. (App. 245). The putative class in the
Erie County action is defined as “all of the
approximately 15,500 private littoral owners of parcels
of real property abutting Lake Erie within the State of
Ohio who were not sent notice of the settlement of the
case captioned State ex rel. Robert Merrill, et al v. State
of Ohio Department of Natural Resources, et al, Case
No. 04CV001080, filed in the Court of Common Pleas,
Lake County Ohio, and who did not file a Proof of
Claim with the Settlement Administrator.” This class
included all owners of lakefront property who had been
denied their right to Due Process by the Merrill
settlement. After the Sortino case in Erie County was
filed, ODNR filed a motion to Enforce the Settlement
and for Civil Contempt in the Lake County Court of
Common Pleas. On November 7, 2019, after a hearing,
the trial court issued a Journal Entry finding that
Sortino was bound by the releases in the Merrill
settlement to which he was unaware, and, by merely
questioning the validity of the releases in his Erie
County case, Sortino was in contempt. (App. 60). This

11
decision further deprived Sortino’s constitutional rights
to access Ohio Courts.2
Sortino appealed to the Ohio Eleventh District
Court of Appeals. On appeal, Sortino argued that the
trial court was entrusted with the duty, before
approving the proposed settlement for money damages,
to review the propriety of class certification under
Civ.R. 23(B)(2) and the adequacy of the notice provided
to class members. Had the trial court done so, it would
have been clear to the court that the class was now a
Civ.R. 23(B)(3) class and individual notice to the class
members, along with the right to opt-out, was
necessary. Sortino argued that the lack of proper notice
deprived class members of their right to Due Process
under the United States and Ohio Constitutions, and
a violation of the Due Process protections of Civ.R 23.
Sortino argued that the deprivation of his Due Process
rights meant that he could not be bound by the Merrill
settlement.
The Ohio Eleventh District Court of Appeals
affirmed the Lake County Common Pleas Court. (App.
2, 22). Sortino appealed to the Supreme Court of Ohio
because the Eleventh District’s reasoning was also
constitutionally flawed and that the Due Process
arguments raised by Sortino were not properly
considered. Sortino filed a Memorandum in Support of
Jurisdiction on February 4, 2021. On April 27, 2021,

2

As guaranteed by the Fourteenth Amendment of the United
States Constitution, “[n]o state shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States[,.]”

12
the Supreme Court of Ohio declined to accept
jurisdiction of the appeal. (App. 1).
REASONS FOR GRANTING THE PETITION
I.

The Ohio Courts Failed to Adhere to this
Court’s Precedents, Which Guarantee Class
Members’ Rights to Due Process Before
They Are Deprived of A Property Interest,
When The Eleventh District Court Of
Appeals Affirmed the Decision of the Lake
County Ohio Court of Common Pleas and
Did Not Require that the Trial Court
Provide Individual Notice of a Monetary
Class Settlement to All Class Members Who
Could Be Readily Identified.
A. This Court has clearly established that
Class Members have a due process right
to individualized notice upon settlement
of a class action for monetary relief
under Rule 23(b)(3) of the Federal Rules
of Civil Procedure.

“The procedural protections attending the (b)(3)
class – predominance, superiority, mandatory notice,
and the right to opt out – are missing from (b)(2) not
because the Rule considers them unnecessary, but
because it considers them unnecessary to a (b)(2)
class.” Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338,
362, 131 S.Ct. 2541, 180 L.Ed.2d 374 (2011). “When a
class seeks an indivisible injunction benefitting all its
members at once, there is no reason to undertake a
case-specific inquiry into whether class issues
predominate or whether class action is a superior

13
method of adjudicating the dispute. Predominance and
superiority are self-evident.” Ibid. Plaintiffs who have
an individual monetary cause of action must be able to
decide for themselves “whether to tie their fates to the
class representatives’ or go it alone – a choice Rule
23(b)(2) does not ensure that they have.” Ibid. at 364.
The express language and the intent of Rule 23
(c)(2) leave no doubt that individual notice must be sent
to all class members who can be identified through
reasonable effort. Eisen v. Carlisle & Jacquelin, 417
U.S. 156, syllabus at 2(a), 94 S. Ct. 2140, 40 L.Ed.2d
732 (1974). Rule 23(c)(2) provides that, in any class
action maintained under subdivision (b)(3), each class
member shall be advised that the class member has the
right to exclude himself/herself from the action on
request or to enter an appearance through counsel, and
further that the judgment, whether favorable or not,
will bind all class members not requesting exclusion.
To this end, the court is required to direct to class
members “the best notice practicable under the
circumstances, including individual notice to all
members who can be identified through reasonable
effort.” (Emphasis added). Fed.R.Civ.P. 23(c)(2). “We
think the import of this language is unmistakable.
Individual notice must be sent to all class members
whose names and addresses may be ascertained
through reasonable effort.” Eisen, 417 U.S. at 173. The
Advisory Committee’s Note to Rule 23 describes
subdivision (c)(2) as “not merely discretionary” and
added that the “mandatory notice pursuant to
subdivision (c)(2) . . . is designed to fulfill requirements
of due process to which the class action procedure is of
course subject.” Ibid. citing 28 U.S.C. App., p. 7768.

14
The Ohio 11th District Court of Appeals’ affirmation
of the trial court’s decision will otherwise mislead
litigants and other courts into allowing settlements
which include compensatory damages, and attorney
fees without any notice to the class members. Class
members will be deprived of valuable Due Process
rights to notice, which are meant to protect absent
class members, if the requirements of Rule 23 can be
ignored simply because the parties settle.
B. The constitutional right to due process.
A cause of action is a form of property interest
possessed by each of the plaintiffs which is protected by
the Due Process Clause. Logan v. Zimmerman Brush
Co., 455 U.S. 422, 428-29 (1982). “When notice is a
person’s due, process which is a mere gesture is not due
process. The means employed must be such as one
desirous of actually informing the absentee might
reasonably adopt to accomplish it.” Mullane v. Central
Hanover Bank & Trust Co., 339 U.S. 306, 315, 94 L.Ed.
865, 70 S.Ct. 652 (1950). The opportunity to be heard,
a fundamental requisite of Due Process, is of “little
reality or worth unless one is informed that the matter
is pending and can choose for himself whether to
appear or default, acquiesce or contest.” Ibid. at 314.
While Rule 23 provides the general process to be
followed for notice to absent class members, it does not
purport to detail every requirement necessary to satisfy
Due Process. In re Nissan Motor Corp. Antitrust
Litigation, 552 F.2d 1088, 1104 (5th Cir. 1977). To bind
known plaintiffs with claims wholly or predominantly
for monetary damages or similar relief at law, plaintiffs
must be provided with minimal procedural due process

15
protection. Phillips Petroleum Co. v. Shutts, 472 U.S.
797, 811-812, 105 S.Ct. 2965, 86 L.Ed.2d 628 (1985).
Plaintiffs must receive notice plus an opportunity to be
heard and participate in the litigation, whether in
person or through counsel. Ibid at 812. The notice must
be the best practicable, “reasonably calculated, under
all the circumstances, to apprise interested parties of
the pendency of the action and afford them an
opportunity to present their objections.” Ibid, quoting
Mullane, 339 U.S. at 314-315. Due Process also
requires at a minimum that an absent plaintiff be
provided with an opportunity to remove himself/herself
from the case by executing and returning an optout or
request exclusion from the court. Ibid.
Absent class members have a constitutional right to
Due Process which includes the right to adequate
notice and the right to opt-out of a class action in which
monetary damages are paid. “[T]he notice procedures
utilized in class actions are of constitutional
significance and must themselves be viewed in due
process terms.” Greenfield v. Villager Industries, Inc.,
483 F.2d 824, 833-834 (3d Cir. 1973).
II.

The Ohio Courts’ Decisions To Enforce As
Valid a Judgment of a Court Which
Deprived Class Members of their Due
Process Rights, Has Created a Conflict
Between the State Court’s Decision and
those of This Court.

A State may not grant preclusive effect in its own
courts to a constitutionally infirm judgment, and other
state and federal courts are not required to accord full
faith and credit to such a judgment. Kremer v. Chem

16
Constr. Corp., 456 U.S. 461, 482, 102 S.Ct. 1883, 72
L.Ed.2d 262 (1982), citing McDonald v. Mabee, 243
U.S.90, 92 (1917) (“[An] ordinary personal judgment for
money, invalid for want of service amounting to due
process of law, is as ineffective in the State as it is
outside of it.”); Haddock v. Haddock, 201 U.S. 562, 567,
568 (1906).
The Ohio 11th District Court of Appeals decision,
which the Ohio Supreme Court declined to review,
conflicts with this Court’s firmly established principles.
This Court should grant Sortino’s petition to resolve
this conflict.
III.

This Court should re-evaluate the dismissal
of the Ticor certiorari petition.
A. The questions raised in this appeal,
which are identical to those the Ticor
decision labeled hypothetical, are
actually of practical importance to these
and future litigants.
1. Whether Class Action settlements
providing only money damages to
class members must be certified
under Rule 23(b)(3), which provides
them the due process right to notice
and to opt-out, is of practical
importance to Class Members who
assert a collateral attack on the
settlements based upon their
deprivation of those rights.

Instead of addressing the request for a declaratory
judgment and a request for mandamus, the Merrill

17
settlement “recognize[d] and acknowledge[d] the
expense and length of continued proceedings necessary
to prosecute the Action through trial and anticipated
appeals, as well as any further appropriations
proceedings.” (Emphasis added.) (App. 129). The State,
instead, paid money to certain class members, in place
of the requested equitable relief. According to the Plan
of Allocation, class members were to file Proofs of
Claims and a Settlement Administrator was to
calculate the amount due each claimant using a
negotiated formula, based on certain specified
attributes of each property. This aspect of the
settlement provided relief that made continuing
certification of the class under Civ.R. 23(B)(2)
inappropriate.
Instead, Civ.R. 23(B)(3) certification should have
been complied with. Civ.R. 23(B)(3) is for cases in
which there are money damages. The purpose of class
certification under Civ.R. 23(B)(3) is to enable
“numerous persons who have small claims that might
not be worth litigating in individual actions to combine
their resources and bring an action to vindicate their
collective rights.” Hamilton v. Ohio Sav. Bank, 82 Ohio
St.3d 67, 80, 1998-Ohio-365, 694 N.E.2d 442, quoting
Wright et al., Federal Practice and Procedure, Section
1777, at 518.
When presented with a class action settlement,
every presiding court must determine whether the
proposed class satisfies all of the requirements of Rule
23, with only one exception: the court does not need to
consider whether “the case, if tried, would present
intractable management problems[.]” Amchem Prods.,

18
Inc. v. Windsor, 521 U.S. 591, 620, 117 S.Ct. 2231, 138
L.Ed.2d 689 (1997). All of the other remaining class
certification requirements “demand [of the trial courts]
undiluted, even heightened, attention in the settlement
context.” Ibid. A trial court may only certify a class if,
after a “rigorous analysis”, it finds that the moving
party has demonstrated that all the factual and legal
prerequisites to class certification have been satisfied.
Hamilton at 70, 1998-Ohio-365, 694 N.E.2d 442. (“The
trial court is required to carefully apply the class action
requirements and conduct a rigorous analysis into
whether the prerequisites of Civ.R. 23 have been
satisfied.”) See also Ortiz v. Fibreboard Corp., 527 U.S.
815, 830 (1999) (“settlement Class actions may not
proceed unless the requirements of Rule 23 are met).
After reviewing the stipulation of settlement in
Merrill, the trial court performed no independent
analysis of the propriety of continuing class
certification. The fact that the settlement provided
monetary relief for the class members was never even
addressed. This, despite the fact that, as the approving
court, that Court was obligated to make findings as to
predominance and superiority in a Civ.R. 23(B)(3)
analysis. Furthermore, the settlement as approved by
the court specifically stated that “[n]o member of the
Settlement Class, certified pursuant to Civ.R. 23(B)(2)
shall have any right to opt out of the settlement and
release.” (App. 137). This provision of the settlement
simply ignored the reality that certification under
Civ.R. 23(B)(2) was no longer viable for the class and
that the rights of class members to be able to opt-out of
the settlement was a procedural due-process
requirement pursuant to Civ.R. 23(B)(3).

19
The trial court clung to the belief that, because a
class seeking only equitable relief was properly certified
under Civ.R. 23(B)(2), certification of the class under
Civ.R. 23(B)(3) was unnecessary even after the parties
settled the case by solely providing money damages for
all class members, instead of the equitable relief
sought. Civ.R. 23 criteria must be strictly applied in
order to assure that the interests of absent members
who otherwise will be bound by a legal proceeding are
protected. “But with respect to each class member’s
individualized claim for money, that is not so – which
is precisely why (b)(3) requires the judge to make
findings about predominance and superiority before
allowing the class.” Dukes, 564 U.S. at 362. Plaintiffs
who have an individual monetary cause of action must
be able to decide for themselves “whether to tie their
fates to the class representatives’ or go it alone – a
choice Rule 23(b)(2) does not ensure that they have.”
Ibid. at 363. When a class action is certified under
Civ.R. 23(B)(3), class members must be afforded the
opportunity to opt-out of the class upon request. In re
Kroger Co. Shareholders Litigation, 70 Ohio App.3d 52,
60, 590 N.E.2d 391 (1st Dist. 1990).
In the context of the settlement which allocated the
payment of funds to each class member who filed a
Proof of Claim as required, the nature of the class
changed dramatically. The settlement transformed the
class from one which was appropriately certified under
Civ.R. 23(B)(2), seeking “final injunctive or declaratory
relief,” to a class which would receive a money
judgment, requiring the members receive “notice plus
an opportunity to be heard and participate in the

20
litigation” pursuant to Civ.R. 23(B)(3). Shutts, 472
U.S. at 812.
The trial court erred by concluding that, even if it
had recognized that the class should have been
certified under Civ.R. 23(B)(3), individualized notice
was still not required. However, pursuant to Civ.R.
23(E)(1), upon settlement, the court is required to
“direct notice in a reasonable manner to all class
members who would be bound by the proposal.” That
does not absolve the court from the directive of Civ.R.
23 (C)(2)(b), that “[f]or any class certified under Civ.R.
23(B)(3), the court shall direct to class members the
best notice that is practicable under the circumstances,
including individual notice to all members who can be
identified through reasonable effort.” (Emphasis
added.) Here, each individual landowner could easily
have been given direct notice by the State of Ohio.
If, as the trial court stated, sending individual
notice to a class of 12,000 to 15,500 individual members
would not have been financially practicable, the
appropriate remedy would not be to refuse to give the
individualized notice. If individual notice of a
settlement cannot be provided to those members of a
(B)(3) class that can be identified, the appropriate
decision of the court would be to refuse to approve the
settlement. “Individual notice to identifiable class
members is not a discretionary consideration that can
be waived in a particular case”; rather it is “an
unambiguous requirement of Rule 23.” Eisen, 417 U.S.
at 176 (order from the Supreme Court instructing the
trial court to dismiss the class action on remand
because the plaintiff argued that individually mailed

21
notice to the entire class would be prohibitively
expensive). “There is nothing in Rule 23 to suggest
that the notice requirements can be tailored to fit the
pocketbooks of particular plaintiffs.” Ibid.
All of the Merrill class members were identifiable.
They owned property which was recorded by the
Auditors in the eight Ohio counties in which land abuts
Lake Erie. However, the overwhelming majority of
Class Members did not receive any individualized
notice. (App. 5, 29). “In the context of a class action
predominantly for money damages we have held that
absence of notice and opt out violates due process.”
Dukes, 564 U.S. at 398, citing Shutts, 472 U.S. at 812.
The notice deficiency is reason enough for the Merrill
settlement approval Order to have no preclusive effect
on Sortino and his putative class members.
2. Determining whether certification
under Rule 23(b)(3) is mandated for
classes receiving monetary damages
will provide clarity to the question of
whether or not this Court need
address the constitutional question
of due process.
Civ.R. 23 contains special notice requirements
triggering constitutional due process concerns. Those
requirements were not followed here. “[D]ue process
requires that an absent class member’s rights are
protected by the adoption and utilization of appropriate
procedures in the certifying court.” Hospitality Mgmt.
Assocs. v. Shell Oil Co., 356 S.C. 644, 660, 591 S.E.2d
611 (S.C. 2004). “A procedure such as the class action,
which has a formidable, if not irretrievable, effect on

22
substantive rights, can comport with constitutional
standards of due process only if there is a maximum
opportunity for notice to the absentee class member.”
Greenfield, 483 F.2d at 831. “Many controversies have
raged about the cryptic and abstract words of the Due
Process Clause but there can be no doubt that at a
minimum they require that deprivation of life, liberty
or property by adjudication be preceded by notice and
opportunity for hearing appropriate to the case.”
Mullane, 339 U.S. at 313. “Constructive notice by
publication may be sufficient to satisfy due process ‘as
to persons whose whereabouts or interests c[an] not be
determined through due diligence.’” Hecht v. United
Collection Bureau, Inc., 691 F.3d 218, 224 (2d Cir.
2012), quoting In re “Agent Orange” Prod. Liab. Litig.
MDL No, 381, 818 F.2d 145, 168 (2d Cir. 1987). Notice
by publication only would be justified if the identities
of all unnamed class members were unascertainable.
Ibid. However, the Merrill class members were
identifiable and actual notice was required.
In this instance, the utilization of class certification
under Civ.R. 23(B)(2) as a means to forego the
provision of notice to the vast majority of the class, was
not an appropriate procedure. “[C]ertification of a class
under (b)(2) does not excuse the due process
requirement that unnamed class members in a class
action predominantly for money damages receive the
“best practicable” notice.” Hecht, 691 F.3d at 225. The
lack of notice deprived Sortino and the vast majority of
class members of their due process rights to receive
notice and to opt-out. Because of the procedural
deficiencies in the notice plan approved by the trial
court, Sortino and the members of his class have been

23
denied their right to due process. The Merrill
settlement deprived absent class members of their
property right to an adjudication of the amount of
compensation they were entitled to receive from
ODNR. Without proper notification of this potential
outcome, along with the lack of information of the class
members’ rights to object or opt-out, the Merrill notice
plan did not satisfy Due Process. The key element of
Due Process is that class members have a full and fair
opportunity to litigate all class issues. Sortino did not
because there was inadequate notice provided. Once
this Court defines the appropriate parameters of Rule
23(b)(2) and (b)(3) certification, it will be established
with certainty whether or not it is necessary to reach
the question whether a lack of notice is a constitutional
violation of class members’ rights.
3. In this Court’s dismissal of the Ticor
certiorari petition as improvidently
allowed, the surviving decision of the
Ninth Circuit regarding the res
judicata effect of an analogous
settlement arrangement supports
Petitioner’s (and all similarly
situated class members’) ability to
collaterally attack the Merrill
settlement.
A Due Process challenge to the constitutional
legitimacy of a final judgment should be seriously
considered by every court. Traditionally, a court’s
judgment is binding on a party only if given a
constitutionally sufficient notice, and if the court had
both personal and subject matter jurisdiction. In the

24
class action context, this Court has added the
requirement of adequate representation and in actions
“predominately” for money damages, an “opt-out” right.
Matsushita Elec. Indus. Co., Ltd. v. Epstein, 516 U.S.
367, 305, 134 L.Ed.2d 6, 116 S.Ct. 873 (1996). Courts
evaluating Due Process collateral challenges must
inquire into Due Process compliance underlying the
prior judgment. Hansberry v. Lee, 311 U.S. 32, 40, 61
S.Ct. 115, 85 L.Ed. 22 (1940). This Court has stated
“there has been a failure of due process only in those
cases where it cannot be said that the procedure
adopted, fairly ensures the protection of the interests
of absent parties who are bound by it.” Ibid. at 42.
Collateral review has always been available to test
whether the prior litigation’s procedures provided a
“full and fair opportunity” to litigate the claims.
Kremer, 456 U.S. at 480. “[C]ertain fundamental
defects – lack of subject matter jurisdiction, personal
jurisdiction, or due process – in a prior litigation will
render the judgment void and without legal effect ***.”
Note, Collateral Attack on the Binding Effect of Class
Action Judgment, 87 Harv. L.Rev. 589, 593-94 (1974).
“Absent class members can collaterally challenge
the res judicata effect of a prior class judgment either
because they were not adequately represented or
because there was not adequate notice. In addition,
absent class members have successfully attacked a
class action court’s ability to bind them by arguing that
they were denied the ability to opt out or exclude
themselves from the class.” Juris v. Inamed Corp., 685
F.3d 1294, 1314 (11th Cir. 2012) (internal citations
omitted) (Emphasis added). “[T]he mere fact that the

25
relief initially demanded was largely equitable should
not permit a court to bind litigants to a settlement that
eliminated constitutionally protected property interests
without due process.” Jiannaras v. Alfant, 124 A.D.3d
582, 585, 1 N.Y.S.3d 332 (2015).
“[W]here it is clear that the trial court and the
parties *** failed to comply with Rule 23(c)(2)’s
mandate that notice be provided to absent class
members, it would defy logic and law to hold that such
putative class members are bound by res judicata.”
Besinga v. United States, 923 F.2d 133, 137 (9th Cir.
1991). A class member’s individual suit will not be
barred by res judicata if notice of the prior judgment in
the class action is inadequate. Penson v. Terminal
Transport Co., 634 F.2d 989, 995 (5th Cir. 1981).
The Ninth Circuit correctly held that it would
violate Due Process to accord res judicata effect to a
judgment involving money damages claims where a
plaintiff to the previous suit had not been afforded a
right to opt-out. Ticor, 511 U.S. at syllabus 1. And,
this Court, after accepting that case for review,
explicitly refused to answer the question of whether a
certification under Federal Rule 23 (b)(2) of a class for
money damages with no right to opt-out would be a
violation of Due Process. The reasoning was that
answering the constitutional question would be entirely
hypothetical. Instead, the case was dismissed as
improvidently allowed, thereby leaving intact the
ruling of the 9th Circuit Court of Appeals.
The trial court’s and the Ohio 11th District Court of
Appeals’ conclusion that there was no error or defect in
the procedure used in the trial court ignores the Due

26
Process violations of lack of notice and the absence of
opt-out rights. The Ohio Court of Appeals erred in
concluding that the procedures were sufficient, simply
because the trial court held a hearing and allowed the
parties to brief the merits of the settlement. A
settlement approved with no notice to those class
members who are stripped of their property rights
cannot bind the class members.
B. The well-reasoned opinion of the Ticor
Dissent should be adopted by this Court,
allowing review of this case.
In dismissing Ticor, this Court was concerned that
a non-constitutional question should have first been
answered. The question in the Ticor appeal, as seen by
this Court, was whether “in actions seeking monetary
damages, classes can be certified only under Rule
23(b)(3), which permits opt-out, and not under Rules
23(b)(1) and (b)(2), which do not.” Ibid at 121. If a
money damages class settlement can only be certified
under Rule 23(b)(3), the class members must always
have a right to opt-out (and a right to individualized
notice), and, if so, the question of a constitutional right
to Due Process would never be triggered. However,
because the question of whether proper certification of
a class for money damages could only occur under Rule
23(b)(3) was not a part of the Ticor appeal, this Court
concluded that that question could not be addressed,
leaving only the constitutional question, which it
declined to review.
Justice O’Connor, joined by Chief Justice Rehnquist
and Justice Kennedy, in her dissent, summed up the
dilemma: “In other words, the Court declines to

27
answer the constitutional question because the
[previous action] might not have been properly
certified. * * * The constitutional ground on which the
Court of Appeals relied, the one we granted certiorari
to review and the parties have briefed and argued, was
necessary to the decision in this case. Our prudential
rule of avoiding constitutional questions has no
application in these circumstances, and the Court errs
in relying on it.” Ticor, 511 U.S. at 123-124.
The actual question in Ticor, as well as that
asserted in Merrill, should focus on when a judgment
may be collaterally attacked in a separate proceeding,
not on the propriety of class certification under a
specific subsection of Rule 23(b). Whether or not the
certification under Rule 23(b)(2) of the classes in a
settlement providing for money damages was proper,
this Court is now being asked to review a different
question. Were the Ticor plaintiffs, as well as the
putative class members in the case filed by Sortino in
the Ohio State Court case, deprived of property without
Due Process of law, either because there was a Due
Process right to notice and to opt-out included in Rule
23(b)(3), which should have been provided, or in the
alternative, a constitutional right under the Fifth and
Fourteenth Amendments to the U.S. Constitution? If
this Court establishes that there is such a right to Due
Process, it can then proceed to determine if a
deprivation of that due process right will allow for a
collateral attack on the judgment entered.
Courts cannot operate in the dark and issue
judgments, purporting to bind large groups of people,
without ever notifying those who would be bound by

28
the judgment of the ramifications of that judgment
when it affects their important property rights, here a
taking of their individual lands by the State. When a
party has been denied Due Process of law, they should
have every right to collaterally attack a judgment in
which they were given no opportunity to participate.
Despite the undisputed fact that the identities of all of
the members of the Merrill class could be ascertained
by the State with reasonable effort, no attempt was
made to provide the thousands of Ohio waterfront
landowners on Lake Erie with any notice of the pending
settlement.
The certified question to this Court in Ticor dealt
only with whether “absent class members have a
constitutional due process right to opt out of any class
action which asserts monetary claims on their behalf.”
Ticor, 511 U.S. at 121. Sortino’s petition seeks to have
this Court review the propriety of class certification
under Rule 23(b)(2) or (b)(3), which is a necessary
inquiry when determining if the Due Process rights of
class members to receive notice, along with a right to
opt-out, are necessary for a judgment to be binding and
enforceable against those class members not provided
with notice. Sortino recognizes that the certification of
the Merill class under Rule 23(b)(2) cannot now be
reversed, but the question as to these class members’
rights to bring a separate action because the prior
judgment is not enforceable as to them, is the same
question that drove the Ticor plaintiffs. This is not a
hypothetical scenario and the answers to the questions
presented are of great practical consequence to these
Class Members, as well as other Class Members in

29
future actions. This is especially true here, because the
State itself conducted the taking.
CONCLUSION
Courts should not be allowed to erode the Due
Process rights of class members, when, after a taking,
they do not strictly adhere to the requirements of Rule
23 and Due Process. The requirements for notice under
the Civil Rules arise from the Constitutions of Ohio
and of the United States, as well as the Rules
themselves. The Ohio State Court of Appeals’ decision
is in conflict with the decisions of this Court and
implicates an important Federal Question. The petition
for a Writ of Certiorari is meritorious, and should be
granted.
Respectfully submitted,
DENNIS E. MURRAY, SR., ESQ. (0008783)
Counsel of Record
dms@murrayandmurray.com
MARGARET M. MURRAY, ESQ. (0066633)
mmm@murrayandmurray.com
DONNA J. EVANS, ESQ. (0072306)
dae@murrayandmurray.com
MURRAY & MURRAY CO., L.P.A.
111 East Shoreline Drive
Sandusky OH 44870
(419) 624-3000

